k.

1

No. 20-6413

IN THE
SUPREME COURT OF THE UNITED STATES

(VloiJjvO

PETITIONER
vs.

kpt , to

/[/),&

, RESPONDENTS

PROOF OF SERVICE
I, Maxine Shepard, do swear or declare that on this date,
'2S/
2021, as required by Supreme Court Rule 29, I have served the enclosed letter of PETITION
FOR REHEARING on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope contain­
ing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commer­
cial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Ph: (202) 514-2217
SupremeCtBriefs@USDOJ.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on /VW\rJ/^

, 2021.

i

